<html>
<title> - [H.A.S.C. No. 111-32]CONTINGENCY CONTRACTING: HAS THE CALL FOR URGENT REFORM BEEN ANSWERED?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-32]
 
                        CONTINGENCY CONTRACTING:
                        HAS THE CALL FOR URGENT
                         REFORM BEEN ANSWERED?

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 25, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
50-056                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
               Steve DeTeresa, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, March 25, 2009, Contingency Contracting: Has the Call 
  for Urgent Reform Been Answered?...............................     1

Appendix:

Wednesday, March 25, 2009........................................    29
                              ----------                              

                       WEDNESDAY, MARCH 25, 2009
 CONTINGENCY CONTRACTING: HAS THE CALL FOR URGENT REFORM BEEN ANSWERED?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3

                               WITNESSES

Assad, Shay D., Director, Defense Procurement and Acquisition 
  Policy, Office of the Under Secretary of Defense (Acquisition 
  and Technology), U.S. Department of Defense....................     4
Harrington, Brig. Gen. Edward M., USA (Ret.), Deputy Assistant 
  Secretary of the Army (Procurement), U.S. Department of the 
  Army...........................................................     6
Parsons, Jeffrey P., Executive Director, U.S. Army Contracting 
  Command, U.S. Army Materiel Command............................     8
Scott, Maj. Gen. Darryl A., USAF, Deputy Commander, Task Force to 
  Support Business Operations in Iraq, Office of the Deputy Under 
  Secretary of Defense (Business Transformation), U.S. Department 
  of Defense.....................................................     9

                                APPENDIX

Prepared Statements:

    Assad, Shay D................................................    40
    Harrington, Brig. Gen. Edward M., joint with Jeffrey P. 
      Parsons....................................................    68
    Snyder, Hon. Vic.............................................    33
    Wittman, Hon. Rob............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    83
 CONTINGENCY CONTRACTING: HAS THE CALL FOR URGENT REFORM BEEN ANSWERED?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Wednesday, March 25, 2009.
    The subcommittee met, pursuant to call, at 4:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Welcome to the 
first in a series of three hearings to follow up on specific 
legislation related to contingency contracting and the 
Department of Defense's (DOD) acquisition workforce. Today's 
hearing will focus on the Department's and the Army's progress 
in implementing the recommendations made by the Gansler 
Commission on Army acquisition and program management for 
expeditionary operations.
    Our next hearing will focus on the congressionally mandated 
Memorandum of Understanding that outlines DOD's, State 
Department's, and United States Agency for International 
Development's (USAID) role and responsibilities for managing 
contracts and contractors on the battlefield.
    Our third and final hearing in this series this spring will 
look at progress made in implementing legislative provisions on 
improving the Department's acquisition workforce from the last 
two defense authorizations.
    These three hearings examine specific topics that are part 
of the larger defense acquisition system, and as I am sure most 
people here know, Chairman Skelton has decided to bring about a 
HASC Panel on Defense Acquisition Reform, which is to be led by 
Congressman Rob Andrews, who is going to take a look at more 
general questions of how to provide the warfighters what they 
need, when they need it, and how to provide the best value to 
the taxpayer in buying goods and services for the Department. 
And we are working with Congressman Andrews. And the staffs 
have been working together.
    We are very excited about the work that is going to be done 
this year. To support our nation's missions in Iraq and 
Afghanistan, thousands of contracts worth billions of dollars 
have been awarded, and the Department of Defense has hired an 
army of contractors. There is currently one contractor for 
every service member in Iraq, and roughly two contractors for 
each service member in Afghanistan. The Army in its role as 
DOD's Executive Agent for contingency contracting was 
unprepared to manage all of them when these contracts began. 
The result has been a disappointing amount of fraud, waste and 
abuse. Who ultimately pays? We all do, the American taxpayer. 
And ultimately our men and women in uniform suffer if they 
don't get what they think the American taxpayers paid for.
    In response to these problems, Secretary of the Army Pete 
Geren appointed the Gansler Commission to review lessons 
learned from recent operations and to provide recommendations 
to improve the Army's capabilities for contingency contracting. 
The Commission's recommendations call for a major change in the 
Army's cultural attitude toward contracting and for 
institutional changes to the Army's contracting capability.
    Since the Gansler Commission reported its findings and 
recommendations, both the Army and DOD have issued progress 
reports that were required by the Fiscal Year 2008 Defense 
Authorization. Today we look forward to hearing about the 
progress that has been made in implementing the Commission's 
recommendations. We want to know if Army contracting career 
paths and leadership positions have been established and what 
progress has been made in rebuilding the Army's contracting 
workforce. We would like our witnesses to discuss how the 
Commission's recommendations apply to the other services and to 
highlight any other Department initiatives taken to improve 
contracting capability. We are especially interested in the 
training of those outside the contracting workforce, those in 
the operational forces who have to deal with contracts and 
contractors in the battle space.
    We are very pleased that all four of you are with us today. 
And we know that all four of you have worked very, very hard on 
these issues, and it is clear that progress has been made, and 
we appreciate you being with us.
    From the Office of the Secretary of Defense (OSD), the 
Director of Defense Procurement and Acquisition Policy and 
Strategic Sourcing, Mr. Shay Assad. Mr. Assad is also the 
Executive Director of the Panel on Contracting Integrity, which 
was established by statute in the Fiscal Year 2007 Defense 
Bill.
    We also have two acquisition officials from the Army, the 
Deputy Assistant Secretary of the Army for Procurement, Retired 
Brigadier General Edward Harrington, and the Executive Director 
for the new Army Contracting Command, Mr. Jeff Parsons.
    We are fortunate to have with us Major General Darryl 
Scott, U.S. Air Force, who is just six days away from his 
retirement. General Scott was on the front line of contingency 
contracting as the Commander of the Joint Contingency 
Contracting Command for Iraq and Afghanistan (JCCIA) from 
January 2006 until January 2008. And let me say, General Scott, 
thank you for your service and for the service you are 
rendering today.
    Thank you all for being here. I am going to yield to Mr. 
Wittman for any comments that he may want to make at this time.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 33.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman. I would like to 
welcome our witnesses today. Thank you so much for joining us 
and thank you so much for your service to our nation. We deeply 
appreciate that.
    Defense acquisition and contracting are matters that have 
gotten a great deal of attention in recent months from the 
public and the President and from the Congress. Most of the 
current dissatisfaction is directed at weapons system 
acquisition, and there is plenty of room for improvement in 
that area. The Department of Defense has also received some 
significant criticism regarding the cost and less than exacting 
oversight of general support contracts in the contingency 
operations, which is the subject of today's hearing. But to be 
fair this is an evolving, expanding area of military 
operations.
    While even George Washington relied on contractors for 
battlefield support, contractors today are an essential part of 
our deployed force structure. Our way of waging war is such 
that our deployed forces now rely more and more on contractors 
to provide basic and increasingly more operational services in 
contingency operations.
    As important as contractor-provided services are to the 
battlefield commander, little conceptual thought has been 
applied regarding how best to structure the support system so 
the commander knows precisely what services to expect and how 
to manage contractors. Additionally, the military services have 
largely reduced their pool of acquisition specialists in recent 
years. The combination of greater demand for contractor 
services, fewer professional contract administrators, and no 
overarching infrastructures led to some undesirable outcomes.
    Our purpose today is not to go over those mistakes, but to 
see how the Department and military services have embraced the 
recommendations of the Gansler Commission to improve our 
expeditionary contracting. I think the Department is headed in 
the right direction in the increased pace of operations, and 
base expansions in Afghanistan will provide ample opportunity 
to demonstrate greater competency.
    Proper oversight of contingency contracts is important, and 
we spend as much or more on these contractors as we do on 
weapons acquisition, which makes it even more important in the 
years to come. These contracts often do not get the same 
attention because the work is performed overseas by more than 
50,000 U.S. citizen contractors and over 200,000 foreign 
nationals in the central command area of operations alone.
    Mr. Chairman, the magnitude of contingency contracting 
operations clearly deserves this committee's continuing 
attention, and I thank you for your leadership in scheduling 
this hearing today, and our witnesses who are experts in DOD's 
efforts in this area, and I look forward to their testimony.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]
    Dr. Snyder. Thank you Mr. Wittman. You all may recall that 
in April of 2008, just about a year ago, Mr. Skelton in the 
full committee held a similar kind of hearing on how we were 
doing with the Gansler Commission. This issue of how monies 
have been spent, which you all have been dedicating your life 
to for some time now, we appreciate it, is one that the 
Congress and the American people are very interested in. In 
fact, this morning Mr. Skelton had a hearing, which I thought 
was an interesting hearing, on the title ``Effective 
Counterinsurgency: How the Use and Misuse of Reconstruction 
Funding Affects the War Effort in Iraq and Afghanistan.''
    I think that is ultimately what this is about; how we spend 
money affects the results and affects our men and women in 
uniform and their families. And so that is why we want to do 
this hearing. And we will continue probably to, maybe not this 
subcommittee, but the Congress is going to continue to look at 
this for some time.
    Your written statements will be made a part of the record. 
And then we will hear from Mr. Assad. And then I understand 
General Harrington and Mr. Parsons, you have a joint written 
statement. And then we will go to General Scott, who didn't 
give us a written statement, but is going to make some 
introductory comments.
    We will use the clock. When you see the light go to red 
that just tells you that five minutes have gone by. You should 
feel free to go beyond that if there are some things you need 
to say, but just to give you an idea of time. So Mr. Assad, you 
are recognized.

 STATEMENT OF SHAY D. ASSAD, DIRECTOR, DEFENSE PROCUREMENT AND 
 ACQUISITION POLICY, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
    (ACQUISITION AND TECHNOLOGY), U.S. DEPARTMENT OF DEFENSE

    Mr. Assad. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Shay Assad. I am Director of the 
Defense Procurement and Acquisition Policy. I am also presently 
serving as Acting Deputy Under Secretary of Defense for 
Acquisition and Technology. In that capacity, among other 
things, I am responsible for all contracting policy with regard 
to contracting in the combat environment. And I am also the 
functional leader for all of those who do contracting within 
the Department of Defense.
    I want to thank you today for the opportunity to appear 
before you and to participate in today's hearing. At your 
request I will address the Department-wide applicability of the 
Gansler Commission recommendations, actions taken since our 
report was written, and other ongoing initiatives. The Army 
will be reporting to Congress directly on its own activities.
    The Gansler Commission developed a broad-based strategy for 
addressing shortcomings identified during its assessment. On 
October 31, 2007, the Commission published its recommendations 
in an independent report. The committee provided four 
overarching areas of recommendation: increase the stature, 
quantity, and career development of military and civilian 
contracting professionals; restructure the organization and 
restore responsibility to facilitate contracting and contract 
management in an expeditionary environment; provide training 
and tools for overall contracting activities in expeditionary 
operations; and to obtain legislative regulatory and policy 
assistance to enable contracting effectiveness in expeditionary 
operations.
    The committee provided 40 specific recommendations in 
support of their four overarching areas. Twenty-two of those 
recommendations were specific to the Army, and we believe that 
the Army is making significant progress towards meeting those 
recommendations. But there is much work left to be done. The 
remaining 18 recommendations were found to affect the entire 
Department and are applicable to all services. All require 
legislative, regulatory or policy enablers and are the focus of 
my testimony.
    In order to implement the requirements of Section 849, the 
Under Secretary established the Task Force for Contracting and 
Contract Management for Expeditionary Operations. The purpose 
of that task force was to evaluate the applicability of the 
recommendations to the entire Department. It was staffed by 
eight cross-cutting teams, members from all three services, the 
Joint Staff, Defense Contract Management Agency (DCMA), Defense 
Acquisition University, and the Joint Contracting Command in 
Iraq and Afghanistan participated. I acted as the Executive 
Director.
    While the Department agrees with the intended outcomes of 
all of the Gansler recommended actions, we did not agree with 
specific recommendations as they were written in one specific 
area, and that is as it related to DCMA, and I will be happy to 
discuss that with you. At this point, I would like to provide 
you a brief overview of several actions since the report to 
Congress, as well as other ongoing DOD efforts that continue to 
go beyond the recommendations in the four areas.
    With regard to contract management and oversight, the 
military departments and defense agencies must plan and program 
to have the force structure capable of supporting the current 
effort of contingency operations consistent with their core 
capabilities. To do this we created a Joint Contracting Command 
services executive steering group.
    On February 19th, the Deputy Secretary of Defense required 
each military department and agency to conduct a total force 
assessment of their required contingency contracting officers 
and the contracting officer representatives to meet their 
mission. With regard to civilian personnel policy, the 
Department must be able to fully access the range of talent 
within the DOD civilian community in order to quickly and 
efficiently support complex mission operations. To accomplish 
this mission the Department is staffing a program office to 
oversee its civilian expeditionary workforce initiative.
    Regarding Section 852 of the National Defense Authorization 
Act of Fiscal Year 2008, the Department has taken important 
steps to have the Department of Defense Acquisition Workforce 
Development Fund targeted for increased training associated 
with contingency contracting officers.
    I want to thank Congress for their support of the 
acquisition workforce and the flexibilities provided for using 
this fund.
    In the area of tools and training for overall contracting 
activities and contract operations, we have made significant 
progress. The Department has made improvements in training 
available in support of expeditionary contracting for both the 
workforce as well as the noncontracting workforce.
    The instructor pilot session for advanced contingency 
contracting will get under way this spring. It will provide 
just-in-time training to journeymen contracting professionals 
deploying into management positions in Iraq and Afghanistan.
    The Commission recommended that we train as we fight. 
Operators outside the acquisition community must be trained on 
the role, importance and rules of operating with contractors 
and expeditionary operations. All senior leaders need to have a 
fundamental understanding of what operational contracting 
support is, the ability to plan and integrate the contract 
support with other military and interagency capabilities, and 
the ability to account for and manage contractors as an 
integrated part of the total force. We are working with the 
Joint Forces Command to make this training a reality.
    In summary, the Department has implemented or adjudicated 
all of the Commission's recommendations, but there is more work 
to be done. Our warfighters deserve our very best effort, and 
the taxpayers rightfully should expect our best effort in 
providing our warfighters the goods and services they need to 
meet their mission.
    Finally, the Department is grateful for the support that 
Congress has provided in enabling us to achieve the necessary 
improvements, and I am prepared to answer your questions. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Assad can be found in the 
Appendix on page 40.]
    Dr. Snyder. Thank you, Mr. Assad. General Harrington, you 
and Mr. Parsons will do your statements.

   STATEMENT OF BRIG. GEN. EDWARD M. HARRINGTON, USA (RET.), 
  DEPUTY ASSISTANT SECRETARY OF THE ARMY (PROCUREMENT), U.S. 
                     DEPARTMENT OF THE ARMY

    General Harrington. Chairman Snyder, Congressman Wittman, 
distinguished Subcommittee on Oversight and Investigations, 
thank you for this opportunity to discuss the Army's progress 
and completed actions to enable an agile expeditionary and 
responsive contracting mission for our warfighters while 
ensuring proper fiscal stewardship of our taxpayer dollars. It 
is my honor to represent the Army as the Deputy Assistant 
Secretary for Procurement, having assumed this position last 
December.
    As an introduction, while on active duty I served as 
Director for Contracting for the Army, and in my last 
assignment as a general officer led the Defense Contract 
Management Agency as its Director.
    As you noted, sir, with me today is Mr. Jeff Parsons, 
Executive Director of the Army Contracting Command. We have a 
joint written statement that I respectfully request be made a 
part of the record for today's hearing.
    Mr. Chairman, in August 2007, the Secretary of the Army 
chartered the Special Commission on Contracting led by Dr. 
Jacques Gansler to look at the long-term strategic view of the 
Army's acquisition and contracting system in support of 
expeditionary operations. At the same time, the Secretary 
established the Army Contracting Task Force internally to 
review current contracting operations and take immediate 
actions where necessary.
    With that work complete, the Army established the Army 
Contracting Campaign Plan Task Force in February of 2008 to 
review the Commission recommendations and other contracting 
recommendations, and determine the requirements and resources 
needed to address them. The mandate of this task force has been 
met, and the workload has been transferred to my organization, 
Mr. Parson's organization, and other enduring organizations 
responsible for sustaining long-term Army contracting success.
    Mr. Chairman, the Army's progress has been steady and 
significant, and the senior leadership remains fully committed 
to executing and sustaining this positive trend. We have been 
guided by the Gansler Commission's overarching recommendations: 
Implement the Commission's recommendations rapidly and measure 
success.
    In addition, the Commission outlined four supporting 
recommendations for the success of future expeditionary 
operation. These four supporting recommendations included 40 
actions to correct discrepancies identified. Twenty-two of 
these are Army specific, while the remaining 18 are within the 
purview of the Office of the Secretary of Defense, or are 
legislative actions being addressed jointly among the services 
with OSD as the lead agent.
    The Army has taken action on or is implementing 21 of the 
22 Army-specific recommendations. The remaining one, to 
increase the contracting workforce by 400 military and 1,000 
civilians, will require more time to ensure we both have the 
quality and the quantity necessary to execute our contracting 
mission. Our plan for fiscal year 2009 is to increase our 
military contracting workforce by 131 members and our civilian 
workforce by more than 500 members. The increase in workforce 
size will continue over the next three years. We thank the 
Congress for the five additional general officer billets 
designated for acquisition. As of September 2008 the Army 
selected one additional general officer, a brigadier general, 
as Commander of the recently established Expeditionary 
Contracting Command, and we will select more general officers 
this year.
    As an experienced member of the Senior Executive Service, 
Mr. Parsons heads the Army Contracting Command, a two-star 
position, that is part of the Army Materiel Command. Another 
billet presently filled by a member of the Senior Executive 
Service is in the one-star Mission and Installation Contracting 
Command. The remaining two billets are the Military Deputy for 
Contracting in the Army Corps of Engineers and an Acquisition 
Contracting General within my office.
    A critically important issue for us is the size, structure 
and training of the military and civilian acquisition 
workforce. From 1998 to 2006 the contracting workforce declined 
by 20 percent, while the workload and the number of dollars 
associated with that workload experienced a five-fold increase.
    The Army, with the help of Congress and the Secretary of 
Defense, is making steady forward progress in addressing these 
workforce workload issues. Over the years we have added more 
than 850 contract professionals. This holistic focus on Army 
contracting will ensure that we attract and maintain additional 
military and civilian contracting professionals who are trained 
to meet the increasingly complex demands placed on them.
    Sir, this concludes my opening remarks. Mr. Parsons also 
has remarks, after which I look forward to your questions.
    [The joint prepared statement of General Harrington and Mr. 
Parsons can be found in the Appendix on page 68.]
    Dr. Snyder. Mr. Parsons.

STATEMENT OF JEFFREY P. PARSONS, EXECUTIVE DIRECTOR, U.S. ARMY 
        CONTRACTING COMMAND, U.S. ARMY MATERIEL COMMAND

    Mr. Parsons. Chairman Snyder, Congressman Wittman, 
distinguished members of the Subcommittee on Oversight and 
Investigations, I appreciate the opportunity to be here before 
you to discuss our progress in implementing the recommendations 
contained in the Gansler Commission report. While the U.S. 
Army's Smart Contracting Report to Congress dated December 14, 
2008, provides a broad overview of how the Army has responded 
to the 22 Army actions specifically identified in the Gansler 
report, I am here today to report on the progress we have made 
in standing up the U.S. Army Contracting Command and its two 
subordinate commands, the Expeditionary Contracting Command and 
the Mission and Installation Contracting Command.
    The standup of these organizations was one of the first 
actions directed by the Secretary of the Army, the Honorable 
Pete Geren, in response to the Gansler Commission report, and 
continues to be a focus of our Army senior leadership. In fact, 
this past Saturday I briefed the Chief of Staff of the Army and 
General Ann Dunwoody, our Commander of the Army Materiel 
Command, on our progress in standing up this new command.
    One year ago we provisionally established the U.S. Army 
Contracting Command at a ceremony held at Fort Belvoir, 
Virginia. By combining the contracting resources of the former 
Army Contracting Agency and the U.S. Army Materiel Command, we 
designed a new two-star subordinate command to the Army 
Materiel Command that is responsible for global contracting 
support to our Army and its soldiers. Our concept for the new 
command was approved by the Army in mid-July and provided 
increases to both our civilian and military resources. These 
additional resources will add over 900 civilians and nearly 400 
military to the new command. The majority of these resources 
will be contracting specialists, contracting officers, and 
contingency contracting personnel.
    We are now in the process of hiring civilians and 
increasing accessions for our military personnel. Between the 
Active, Guard and Reserve components we will eventually have 
905 soldiers in our expeditionary contracting structure.
    To date, our Army Contracting Command and Expeditionary 
Contracting Command headquarters are nearing a 50 percent fill 
rate. We have appointed a one-star general, Brigadier General 
Camille Nichols, as leader of the Expeditionary Contracting 
Command, and we have activated four contracting support 
brigades led by seasoned colonels. These brigades provide 
contracting support and contract planning support to our Army 
service component commanders. These brigades currently support 
U.S. Army Central Command, U.S. Army Europe, U.S. Army Korea, 
U.S. Army North, and U.S. Army South. Later this year we will 
activate two more contracting support brigades and the 
remaining 7th Brigade will be activated in 2011.
    Underneath these brigades we have eight contingency 
contracting battalions. To date we have activated five of these 
battalions. The battalions provide contracting support and 
contract support planning at the Army Corps level and provide 
oversight of our senior contingency contracting teams and 
contingency contracting teams. These four-person teams provide 
contracting support at the division and brigade level. By the 
end of fiscal year 2009, we will have activated 42 teams.
    The teams, battalions, and brigades, are modular in nature 
and can be deployed worldwide in support of military 
operations. The teams and battalions get their day-to-day 
contracting training and work experience at our installation 
and contracting centers located across the Army Contracting 
Command.
    While we have a ways to go in staffing and training our 
contingency contracting soldiers, we are providing forces to 
the Joint Contracting Command--Iraq/Afghanistan in support of 
Army joint manning requirements. Our soldiers also support 
numerous exercises in smaller military operations on a day-to-
day basis across the globe.
    We have tested our deployable capability and doctrine in 
two significant joint exercises in Panama and Europe. Lessons 
learned from these exercises are used to refine our doctrine 
and training. There is still much to be accomplished, but I am 
confident that we are making good progress in building our 
expeditionary contracting capability to support our Army and 
future joint operations.
    I appreciate the congressional support of the Army's 
efforts in providing our nation's warfighters and allies with 
quality products and services. We continue to pursue 
improvements in our contracting processes and workforce as 
demonstrated by our Secretary's commitment to implement the 
recommendations in the Gansler Commission report. I look 
forward to your questions.
    [The joint prepared statement of Mr. Parsons and General 
Harrington can be found in the Appendix on page 68.]
    Dr. Snyder. Thank you, Mr. Parsons.
    General Scott.

STATEMENT OF MAJ. GEN. DARRYL A. SCOTT, USAF, DEPUTY COMMANDER, 
 TASK FORCE TO SUPPORT BUSINESS OPERATIONS IN IRAQ, OFFICE OF 
        THE DEPUTY UNDER SECRETARY OF DEFENSE (BUSINESS 
          TRANSFORMATION), U.S. DEPARTMENT OF DEFENSE

    General Scott. Thank you Congressman Snyder, Congressman 
Wittman. I appreciate the opportunity to participate in today's 
panel.
    I am Major General Darryl Scott, and with my retirement 
this month I conclude 34 years of service with the United 
States Air Force. For more than 28 of those years I served as a 
military contracting officer. During that time I was guided 
through a variety of acquisition and logistics assignments and 
development opportunities that taught me not only how to make a 
sound business deal, but also how to establish and maintain the 
standards of stewardship that the American people expect, as 
well as how to develop, employ and support the elements of 
military power.
    I have held line and staff jobs. I graduated from the Air 
Command and Staff College and Industrial College of the Armed 
Forces. I have commanded three times, and I have served as the 
Director of the Defense Contract Management Agency from 
December 2003 to January 2006. The senior officers who nurtured 
me as my mentors, leaders and commanders had similar 
backgrounds to mine; a balance of operations, leadership and 
contracting and acquisition education training and experience. 
Their experiences taught them that the essence of good 
stewardship is a careful balance between effective oversight 
and operational mission accomplishment. Too little attention 
paid to either results in waste and mission failure. And they 
made sure that I understood that also.
    For me, all that experience and preparation culminated in 
the most challenging and rewarding assignment in my career as 
Commanding General of the Joint Contracting Command--Iraq/
Afghanistan from February 5, 2006, to January 19, 2008. During 
my tour nearly 900 of the finest airmen, soldiers, sailors, 
Marines and DOD civilians I have ever met rotated through the 
command. Almost without exception they were as honorable, 
mission focused, hard working and selfless a group as you could 
ever wish for, and I am extremely proud of them.
    Sometimes hard work and self-sacrifice by themselves aren't 
enough. Too frequently we found that the individuals the 
services sent us weren't adequately prepared to work in an 
environment as complex as Iraq. Some had been trained only for 
small purchases of commercial supplies, yet in my first year 
there 50 percent of our workload were large infrastructure 
reconstruction projects. Some were well versed in the processes 
for awarding new contracts, but lacked experience in managing 
and overseeing a contractor's performance. Many were unfamiliar 
with the exceptional authorities Congress has provided for 
streamlining contingency contracting operations. Most had no 
experience synchronizing contracting activity with the 
strategic objectives of the Iraq and Afghan campaign plans and 
no experience managing scarce human resources in ways that 
properly balance operational and business risks. Some, 
particularly among my Army personnel and Marine Corps 
commissioned officers, were on their first assignment in 
contracting. Almost literally a baptism by fire.
    It is clear to me that these shortcomings were not their 
fault, but rather the fault of a system that over a period of 
more than 10 years had eliminated the path that produced the 
superb senior officers who mentored me.
    The Gansler report notes that at the time I took command 
the Army had no general officers in contracting, and indeed I 
was the only career contracting active duty flag officer in any 
of the services. I was privileged to be allowed to testify at 
length to the Gansler Commission about the challenges my 
command faced in trying to provide effective stewardship over 
contracting and the reasons behind those challenges. I was 
pleased with the comprehensiveness of the Commission's findings 
and the seriousness with which the Army leadership responded.
    Still I remain somewhat apprehensive. The circumstances 
that permitted the cadre of senior officers skilled in both 
contracting and operational art to wither away will require 
years of persistent effort to fix. I applaud the foresight of 
the Congress, OSD, and the Army in establishing 10 new 
contracting flag billets, five for the Army and five in the 
joint community. But the true test of this policy will be 
whether the bright young contracting lieutenant colonels of 
today will receive the care and attention from knowing mentors 
like I did, that care and attention that will enable them to 
advance into these positions. And will the brightest young 
captains and majors of tomorrow look at contracting experience 
as career enhancing or as a career detriment?
    Thank you for your time today. I look forward to your 
questions.
    Dr. Snyder. Thank you all. I appreciate your all's 
statements today. What we will do is Mr. Wittman and I will put 
ourselves on the five-minute clock and go back and forth here 
until we run out of things to ask about.
    I thought Mr. Assad, I thought it was your--no, I guess it 
was Mr. Harrington, your statement, you referred to it I think 
briefly on page eight in which you discussed what seemed to be 
the underlying problem. You say that we found that more than 
600,000 contracts may be complete, but have not been officially 
closed out in the contract management system. We have taken 
immediate steps to obtain greater fidelity in this figure, 
explore the root causes, and implement a comprehensive plan to 
clear the backlog of contracts requiring closeout. A primary 
cause has been a 25 percent reduction in the contracting 
workforce during a period of 500-plus percent in contract--500 
percent increase in contract transaction workload.
    I think that really describes the challenge that you all 
are dealing with, and that is not at all necessarily an Army 
created problem. That is as much a congressionally created 
problem as anything. But that really brings home--and as you 
just pointed out--brings home the problem. You just pointed 
out, General Scott, it can take a long time to put those pieces 
back together. It is a lot easier to reduce your cadre of 
trained people than it is to build it back up again when you 
have let them go.
    I think the first question I wanted to ask is to you, Mr. 
Assad. In your statement you refer to senior leadership. You 
say, quote, on page 23, ``all senior leaders need to have a 
fundamental understanding of what operational contract support 
is, the ability to plan and integrate contract support with 
other military interagency capabilities, and the ability to 
account for and manage contractors as an integrated part of the 
total force.''
    And it seems like I suspect if we went out and talked to 
most Americans, are you aware that half the force that we have 
sent to Iraq are civilian contractors, only that they weren't 
all sent there, significant numbers are brought from other 
countries who are there? But are you aware that over half of 
the support, or half of our force are civilian contractors? And 
I think over half of the contractors are for base support. It 
is not like they are doing something that is not significantly 
important to the force. I suspect most Americans would not 
think in those numbers. We always talk about how many troops 
are in Iraq, pretty much a one-to-one ratio in Iraq since this 
thing has started.
    How do you think the military is doing and the Army is 
doing with regard to the concept of how significant the 
contracting force is, so significant that they need to 
prioritize in their mind the ability to manage contracting and 
manage contracts?
    Mr. Assad. Mr. Chairman, I don't think there is any doubt 
that the leaders of today fully understand the fact that they 
are managing an integrated force, and that 148,000 contractors 
in Iraq and some 71,000 in Afghanistan, the commanders on the 
ground clearly have a much better understanding today than they 
did five years ago of the power of that force and the 
importance of that force.
    I can give you one personal example. I actually came on 
board into civilian service in 2004 with the Marine Corps, and 
I was a senior civilian contracting official with the Marines 
at that time. General Mike Hagee was the Commandant of the 
Marine Corps at that time. When I took over this position at 
OSD I went to see the Commandant to thank him for everything 
the Marine Corps had done for me. And he said to me, you know, 
Shay, six or seven years ago I might not have said this, but 
the reality is if, and he said I was a battlefield commander, 
if I was going to the battlefield one of the first three people 
I would bring with me is a contracting officer. And so there is 
no doubt that the leadership now understands the importance of 
being able to contract for certain nonorganic capability and 
then to integrate that capability into the force.
    This has been a learning experience for a number--for the 
entire community in terms of the large number of contractors 
that we have in our force. But there is no doubt that I think 
as we go forward contractors will remain part of the support 
force for the warfighting Army and Marine Corps especially. The 
reality is that I think as we go forward we are working with 
the Joint Forces Command now, so that we get training courses 
into all of our staff colleges and into all of our junior 
courses and our noncontracting military officers so they 
understand what it is like to have contractors supporting them 
and to have members of their operational force who will be 
responsible for overseeing that contract performance. And I 
think the Army is going through a transition right now in that 
regard in the sense that it is the operating force that really 
will provide most of the oversight for our post camp and 
station type activities, where we will always have folks from 
the Defense Contract Management Agency and professionals 
overseeing certain unique technical oversight of certain 
technical contracts in all of our engineering support contracts 
for our major weapons systems. But for post camp and station we 
will rely on our operating force to do that, and I think our 
operational commanders are up to it now.
    Dr. Snyder. General Harrington, before I go to Mr. Wittman, 
do you want to comment on that issue of the senior leadership?
    General Harrington. Certainly, sir. I will give you two 
examples. About a month and a half ago I was called in to brief 
the Vice Chief of Staff of the Army, much as we are discussing 
this today. And I got to my second slide on an update of 
Gansler and what we were doing with it, and he stopped me and 
he had all of the major Army commanders on video teleconference 
(VTC) hookups into the Pentagon and all of the Army staff, to 
include some of the secretariat. And the reason he stopped me, 
he expressed very clearly to the chain of command throughout 
the Army that contracted support is a part of the Army, and he 
essentially said it is a part of our force structure, we have 
got to accept that we have got to get our arms around 
contracting officer representative (COR) support, the 
commanders in the field at each level have to emphasize the 
proper training, the selection of those CORs, that they are a 
vital component of ensuring the contractors deliver what they 
are on contract to deliver, and that they are the eyes and the 
ears for the contracting officer.
    As recently as a week and a half ago I provided, and Mr. 
Parsons did also, an update to the Secretary of the Army, and 
we are due back in another week to continue to follow up with 
him on the actions we are taking.
    So I think the senior Army leadership is tuned in. They 
know it is a matter of emphasis. They understand the value of 
what contracted support provides the Army and understand the 
necessity of overseeing it properly to make sure we get what we 
pay for.
    Mr. Parsons had just mentioned the Chief of Staff of the 
Army is General Dunwoody, last Saturday, and that is a 
component. We just left the VTC with our two bosses, General 
Dunwoody and Mr. Popps to come here. They discussed 
specifically the contracting support in Iraq and what we are 
going to do in Afghanistan.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. And that is a great 
segue to my question. If you look in the long run it looks like 
in Iraq we are certainly going to see a reduction in demand for 
contracting and contractor support. But it seems like in the 
near term as we move personnel and equipment out of Iraq there 
is going to be an increase in demand. We are also going to see 
that in Afghanistan as we move more personnel and equipment 
into Afghanistan.
    With that being the case, can you talk a little bit about 
what steps need to be taken to prepare for this surge in 
contractor support and for the demands that it is going to 
place on the contingency contracting system?
    Mr. Assad. Sir, we are working with the Army with regard to 
what are the increases to the Joint Contracting Command that 
are going to be necessary to meet this requirement, and whether 
or not there is a civilian workforce component of certain types 
of contracting that we can do in the rear to support what will 
be done on the ground. So we are actively looking right now at 
increasing the number of contracting officers on the ground in 
the Joint Contracting Command, both in Iraq and Afghanistan, 
for the very reasons you mentioned.
    General Harrington. At the conclusion of our VTC today we 
confirmed Brigadier General Bill Phillips is a contracting--has 
a contracting background. He commands the JCCIA that Darryl 
Scott commanded. He has done a deliberate workload assessment 
both in Iraq and Afghanistan and looks at weighting the effort 
in Iraq, for instance, with more civilians because of the 
relatively more secure environment there and weighting the 
Afghanistan requirements with more military.
    I would ask Mr. Parsons, if it is okay, to talk further on 
that.
    Mr. Wittman. Absolutely.
    Mr. Parsons. Sir, one of the other things that we have done 
that we learned out of Kuwait is that we could establish some 
reach-back capabilities, is what we call it, where we do some 
of the contracting back here in the States for the theater. You 
can't do this in all cases, and certainly you still need 
presence in that country. But we have established a 10 to 12-
person cell dedicated to the Joint Contracting Command in Iraq 
and Afghanistan now at Rock Island. We are going to increase 
that. And as General Phillips identifies requirements that he 
believes we can execute back here in the United States in 
support of him, we will do that. That allows some reduction on 
the demand for having people right there on the ground. It also 
gives us the ability to reach into a lot more expertise when it 
comes to the more complex contracts. So that is the other 
aspect we are doing.
    We are also putting a Logistics Civil Augmentation Program 
(LOGCAP) presence with LOGCAP IV into Afghanistan to help with 
the surge requirements. In fact, task orders have already been 
issued under LOGCAP IV in support of the buildup there.
    Mr. Wittman. General Scott, your thoughts.
    General Scott. Congressman, I will remind everybody I have 
returned from Iraq 14 months ago, so I don't feel that I would 
ever second guess Brigadier General Phillips and his assessment 
of what is necessary. But I will say that one of the things 
that came out of the Gansler report was a realization on all of 
our parts that, first of all, we needed more people in theater. 
And you heard from Mr. Assad that that plan is under way. But 
as Mr. Parsons said, if we plan the work properly you don't 
have to do all of the work in theater.
    I would say that one of the maturation steps of the theater 
of the contingency environment has been recognizing that we 
need to do a better job of planning and organizing. Frankly, my 
predecessors were faced with a pick-up game--they show up in 
the driveway and the next game you play is in the Sweet 16--
where now we are doing a far better job on that and we are 
learning an awful lot and taking advantage of that.
    Mr. Wittman. We only talked a little bit about integrating 
this whole thought process on contractor support. Have 
combatant commanders recognized the importance of contractor 
support, and how many have included operational contractor 
support requirements in either their op plans or their con 
plan?
    Mr. Assad. Sir, we are working with--we now have an 
organization called the Joint Contracting Acquisition Support 
Office. The purpose of that office is to accomplish that very 
mission. That is to work with each of the combatant commanders 
and ensure that they in fact have contracting planning support 
done in their op borders. Three or four years ago frankly those 
op borders would have been pretty bare in terms of the 
direction and the scope of contracting.
    In today's environment we just conducted, for example, our 
first Joint Contracting Command training over in European 
Command (EUCOM). We have got two more training sessions going 
on this year, one in Pacific Command (PACOM) and one in 
Southern Command (SOUTHCOM), I think. But the idea here is to 
get the plans in place so that our operational commanders not 
only understand what is the scope of the contracting support 
that needs to be brought to bear, but what are the contracting 
tools that are going to be used to get that contracting there 
on time and, more importantly or just as importantly, who is 
going to oversee this so that the taxpayers get what they are 
supposed to get and our warfighters get the goods and services 
they wanted.
    Mr. Parsons. If I could add to that. We just recently this 
past August participated in a joint exercise called PANAMEX, 
which focused on Panama down in the Southern Hemisphere. And it 
was the first time that, not really the first time, but the 
second time that we tested this joint task force and joint 
contracting by deploying one of our contracting support 
brigades. And they started very early on with the joint task 
force commander and the other services in the planning for that 
operation.
    So we are proving that the up-front planning pays off. One 
of the things that they did was they included the Air Force 
contracting folks, they included the Navy folks, and by that 
early planning were able to actually identify contract vehicles 
that were already in place that could be used for things like 
opening a port. And so we are seeing this paying off in spades 
now.
    And what my observation is, I think there is a lot more 
jointness that is now taking place between the services as we 
work with these combatant commanders in doing their operational 
plans.
    General Scott. Sir, if I may add, one of the things that I 
think the Army has done extremely well is the Army is out in 
front in developing organizational concepts that facilitate the 
planning part. The problem prior to the establishment of the 
contract support brigade was you had military organizations 
that were designed to award contracts, but they weren't 
designed to plan the ingress phase, the transition phases, to 
do the kinds of market research that you need to do to see what 
is available in theaters. When I first saw the structure of the 
contracting support brigades I said, gee whiz, I wish I had 
this when I was walking into Iraq. It would have made life a 
whole lot simpler, because you have folks already who 
understand what the tasks are and how to sequence things in 
order to make them work a whole lot smoother, and we sort of 
learned all that on the fly.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. I guess using the jargon that you all use more 
than we do, General Scott, you talk about these skills being a 
core competency and not something that you kind of pick up as 
you need to when you go to a new theater or something. And it 
sounds like you are going back to the discussion about what are 
the senior leaders doing that we are moving in that direction. 
Is that what you are saying?
    General Scott. Yes, sir. I would say that the real 
challenge is getting them to understand that it is not just 
knowledge of the Federal Acquisition Regulations (FAR), it is 
understanding how do you--what the concept of operation is for 
supporting a force, given the particular mission that that 
force had. This is one of the reasons why you really need 
military senior folks in there, because core competencies for 
military force employment are in the uniform side of the 
Department of Defense. And it is that knowledge and skill, 
combined with FAR-based knowledge, combined with sound business 
judgment that results in a good contracting support plan. If 
any of those pieces are missing, the job becomes orders of 
magnitude more difficult. And frankly, those are the kinds of 
things that we have seen where fraud, waste and abuse can 
occur. It starts with if you don't have a really good plan, if 
you don't know how you are going to do oversight, if you don't 
have the people identified and trained to task, the 
opportunities for mischief grow.
    Dr. Snyder. This is your all's book here I think. This 
appeared in my office today. I didn't request it. But your book 
brings home another issue to everything you just said there, 
General Scott. But this does not look like a nice pristine real 
estate office. Those are pieces of paper on what is a hood of a 
jeep, I think, or a hood of some vehicle. You have got that 
whole environment too that you are in strange settings and 
dealing with different languages and trying to do things very, 
very rapidly. That seems to be the theme to this book of how to 
do these things when you are in difficult environments. Is that 
a fair statement?
    General Scott. Yes, sir.
    Dr. Snyder. I wanted to ask, maybe I will ask you, Mr. 
Assad. With regard to the CERP funds, I guess that is the 
Commander's Emergency Response Program, isn't that the acronym? 
Where do you see the management and contracting and oversight 
of the CERP funds, which we have had this discussion on the 
congressional side, are these development funds? I don't think 
they are development funds, I think they are counterinsurgency 
funds. And in an area that has just been cleared out and I see 
300 men standing around and I can pay them five dollars a day 
to clean trash and that gets them occupied, I would rather, who 
cares about the paperwork, is a bit of an attitude at that 
time. But I would like to hear your review of how you see the 
CERP funds in this whole picture.
    Mr. Assad. Dr. Snyder, that is an interesting point. When I 
got to OSD, one of the concerns that was expressed by some of 
the operational leadership was that we were invoking too many 
FAR-based principles, Federal Acquisition Regulation 
principles, on the CERP fund, and we were preventing it from 
being used in the manner that it should be used. So we did a 
pretty exhaustive examination of that. And as you all know, 
there are no regulations that necessarily have to apply to 
that. And in fact there were no FAR regulations that had 
applied. But it was the operational commanders themselves and 
their concern that the money be properly accounted for that led 
to very stringent rulemaking amongst noncontracting folks, if 
you will, in an effort to try to account for those funds 
properly.
    And I would like, maybe General Scott can talk a little bit 
about that in terms of the ordering officers who were actually 
using those funds.
    General Scott. I would like to talk about that in terms of 
two brief war stories. The first one was when the now current 
Vice Chief of Staff of the Army, who was the core commander at 
the time, invited me for lunch at his headquarters and forgot 
to inform me I was the main course. But actually what General 
Corelli had in mind was a campaign, and this was Operation 
Together Forward, the second battle of Baghdad. His strategy 
was clear: Hold and build. So we did a security operation to 
clear the area, we established a cordon around it to hold it, 
and then we want to build within that area, whether it is 
restoring public services, whether it is hiring the 300 guys 
that are around the corner to pick up the trash, but we want to 
do something to show the folks that the quality of their lives 
was going to improve.
    The problem that he was faced with was the FAR-based 
bureaucracy. Even in the best of circumstances if you are going 
to spend a half million dollars under the FAR, it is going to 
take you about 45 days to do that. And what they had in mind 
was about a 48-hour response time that we were clearing the 
area, 48 hours later we would have people in there picking up 
the trash, restoring the water and sewer and electricity and 
improving the lives of the folks.
    So what we did is we went and examined it and said, well, 
why is this, that we have this lag time between flash to bang, 
as the Army calls it, between the desire for it and the actual 
effect showing up. And it turned out that when we did that 
examination most of the rules that had been imposed were not 
required by the Federal Acquisition Regulations, not required 
by the Department of Defense. Congress had been very, very 
clear that their intent for CERP money was you need a process 
that is fair, transparent and accountable, but we give 
commanders broad discretion in how they establish that. It 
turned out that most of the rules we had put on ourselves. So 
the fairly quick solution was loosen up. We established some 
local procedures for accountability, we told the folks they are 
ordering officers, that this is the standard for competition, 
free independent sources, bidding on a project. And we said, 
everything you do, write it down, because eventually we are 
going have to come back and account for it. And we did that. 
First of all, we achieved the 48-hour turnaround where we could 
achieve the effects that the commanders wanted within that time 
frame. And second of all, through that whole period of time 
there was not one case where CERP money went unaccounted for.
    So folks took it very, very seriously. The commanders 
understood that they were personally liable and accountable. 
This was not something that some contracting officer was going 
to go to jail for, it was something that they were going to be 
held accountable, and they responded.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Mr. Chairman, you had 
mentioned a little bit earlier the hearing we had earlier today 
that talked about the use and misuse of resources there in the 
reconstruction of Iraq. It brings me back to the Gansler 
Commission report that talked about there being more auditors 
in the field than government contractors there.
    The question is this. Do we have the right balance now 
between auditors and contractors, and are the folks in charge 
of auditing doing the proper job in staffing and training those 
folks that are charged with that audit function?
    Mr. Assad. I think we have done a lot better. But right now 
what we are doing, Mr. Congressman, is examining, especially in 
Afghanistan, the answer to that question, do we have enough 
oversight? Not just auditors, but Defense Contract Management 
Agency professionals, as well as properly trained contracting 
officer representatives.
    I think that in terms of auditing invoices for our U.S.-
based contractors, we have got that down pretty well. When we 
start to talk about local procurements, then it becomes a 
little bit more difficult because there are situations where 
the contractor is there one day and not there the next.
    And so what we want to make sure of, however, is that as we 
award these contracts that sufficient oversight is in place. We 
are looking to put more contract oversight in theater. There is 
no doubt about that. We need to train our contracting officer 
representatives more capably, and we also need look at our 
Defense Contract Management Agency staffing.
    Right now there are about 240 folks in the Defense Contract 
Management Command who are overseas in Iraq and Afghanistan. 
That probably needs to be plused up a little bit.
    General Scott. Sir, if I can comment on that. I would also 
say that in a contingency, the relationship between the 
auditors and the contracting officers has to be somewhat 
different than it is in typical state-side contracting. What we 
found worked very well was to maintain the independence that an 
auditor must have in order to do their job effectively, but 
there had to be some degree of cooperation. It was almost--I am 
an Air Force guy, so it was almost like an air defense solution 
where someone queues the weapon to the target and then somebody 
else goes out and prosecutes the fight.
    General Scott. And the someone that queued the weapon to 
the target most frequently was the contracting officer. 
Something smells bad about this. I have a bad feeling about 
something going on. Can you guys please take a look at this? 
Where state-side, we are more used to the auditors setting 
their audit agenda much more independently as well as 
conducting the audits themselves.
    But I will tell you I met with Special Inspector General 
(IG) for Iraq Reconstruction monthly. My staff met with them 
weekly. I met with the Army audit agency monthly. When Defense 
Contract Audit Agency (DCAA) established their presence over 
there, we had monthly meetings. And it was really kind of an 
audit coordination meeting where we would look at it and say, 
hey, look, I am really worried about blanket purchase 
agreements. I think that they may be being misused. Can you 
guys go take a look at that and give me either a thumbs up or 
thumbs down?
    The advantage for me as a commander was, those initial 
reports came directly back to me and to my contracting officer, 
so we could go do something about it right then, not wait until 
two or three months later when things go through the normal 
coordination cycle and the nice pretty bound report comes out. 
Well, by that time, the guy that was doing all the mischief is 
gone.
    Mr. Wittman. Gone.
    Mr. Assad. If I might say something, Dr. Snyder, you had 
mentioned that we have a panel on contracting integrity that 
was set up by this committee, as a matter of fact. It was 
initiated through the House. One of the subcommittees that we 
have is on procurement fraud. And in particular, it was to 
educate and create tools to educate our contracting officers on 
the battlefield to become more aware of areas or events or 
situations that they could be in that might prevent or that 
might cause fraud and/or waste and abuse. Creating check lists, 
simple things like checklists for when they were going to 
relieve another officer in a forward-operating base what they 
should be looking for. And also helping that officer who is at 
that forward-operating base to say, you better be prepared with 
the following documentation, because it is going to be expected 
of you by your relief.
    We have worked with the DOD IG as well as the Navy, Air 
Force and Army IGs in setting up some terrific tools on Web 
sites for our contracting officers who are in the battlefield 
to gain access to tools that will help them with regard to 
ferreting out fraud.
    Mr. Parsons. I would just like to add one more point. Our 
design over these contracting support brigades led by these 
colonels, the Army Criminal Investigation Division (CID) and 
the Army Audit Agency had both agreed to make a pool of 
deployable CID agents and Army auditors that we can tap into as 
part of our deployment for the brigade. So when a brigade 
deploys, we will most likely bring a CID agent and an Army 
auditor with us as well. And those CID agents are already 
helping us in doing some instruction with the contracting 
officer representative. So when we give a class to the 
Contracting Officer's Representatives (CORs) today, the CID has 
a block that talks about procurement fraud and bribery and 
those types of things. So a lot of the education is improving.
    And I think the more we get our forces educated, the less 
auditors you really need on site. I think what we are suffering 
now is, like General Scott said, so much inexperience and not 
enough people kind of lead to that environment where you almost 
had to overreact with the number of auditors. I think in the 
future it will be better balanced.
    General Harrington. Sir, I would add, with the help of OSD 
within the Army, we have restored what we called the 
Procurement Management Review Process. We have now just about 
completed staffing up two teams and very much appreciate 
Congress's support for the resources to be able to do that. 
These two teams are specifically dedicated to going out into 
the Army. As recently as last week, we reviewed the Kuwait 
contracting command under Mr. Parsons. And today we are putting 
the planing together to go into JC CIA in Iraq as well as in 
Afghanistan in about another month.
    The procurement management review goes into contract files, 
looks at policies, processes, tools. It is not just the 
inspection activity; it is to say, to determine, are you 
adhering to the guidance that you have got? It is as well my 
tool to collect data on what we need to, at our level, to 
better enable our contracting workforce. Mr. Parsons has the 
same capability in the Army contracting command, and it is our 
ability to gain firsthand experience about what is really 
happening out in these activities wherever they may be. So we 
have that in process.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. See, we get to rest up for five minutes and you 
all don't. We have a tag team going on here.
    I want to ask, have you, any of you, heard of the steamboat 
the Sultana? I see a nodding head in the second row back there. 
The Sultana is the worst maritime accident in the history of 
the United States. It was a couple weeks after the end of the 
Civil War. I don't remember where it shoved off from, but it 
picked up a load of mostly Union soldiers who had been released 
from prisoner-of-war camps in the South. They were all 
emaciated, sick, not doing very well.
    The company had a contract to haul these soldiers up North. 
Now this is where there became a problem, because the steamship 
was, I think, three times the load it was supposed to take. It 
actually pushed off from Memphis, picked up a load of wood at 
Marion, Arkansas, went out in the middle of the river; it was 
at flood stage, and the boiler blew. So I forget the number. I 
am not sure I know exactly, 1,700 or so lives lost because most 
of them were very weakened Union soldier war veterans.
    The country didn't pay a whole lot of attention to it, 
except for the families, because Lincoln had been assassinated 
shortly before then. The war was over. But it brings home, it 
is not just writing the contracts; it is what happens, the 
quality, the performance. Obviously, we haven't had anything 
like that I don't think ever since then. But we do have things 
that have occurred. The one I think has gotten the most press 
attention was the allegations of improper electrical work that 
has resulted in the loss of life.
    I have got your book now, and I don't see anything along 
here in this little index thing about monitoring a contract or 
quality controls during performance of the contract. Where does 
that fit in? And that may not be your all's responsibility. 
Where does that fit in for the guy who just signed this on the 
hood of a vehicle, what is his responsibility to go back and 
check on the contract?
    Mr. Assad. Well, his responsibility is to ensure that the 
contracting officers' representatives that are participating 
and working with him are in fact properly trained to execute 
their responsibilities, and that DCMA, working through the 
Joint Contracting Command in the case of Iraq and Afghanistan, 
is in fact overseeing contract performance. It depends on the 
instrument.
    If it is LOGCAP, for example, much of that oversight is 
conducted by the Army contracting officer representatives. If 
it is a technical contract, that would in fact be overseen by 
DCMA. And so I believe there is a section in there, Doctor, and 
I would be happy to get it for you, that does talk to 
contract----
    Dr. Snyder. Contract administration?
    Mr. Assad. Yes, sir, that is it.
    Dr. Snyder. Ah, look at that.
    Mr. Assad. There is a section in there. But having said 
that, there is also a DVD in the back of that book that we have 
provided to our contracting officers that leads them to, it 
would be in the last page of that, that would lead them to a 
Web site that gives them additional information with regard to 
contract oversight and contract management services. It should 
be in the very last page of the book.
    Dr. Snyder. Actually, I will read the first sentence. It 
says, this chapter discusses actions a contracting officer 
should take to administer a contract that covers actions to be 
taken and documentation included from contract award to 
contract close out. And this includes seizures, monitoring, 
transferring, terminating and closing out contracts. So I 
missed a tab. You have it all covered.
    Mr. Assad. You had me worried there, Mr. Congressman.
    Dr. Snyder. I know it. It is an issue, though. You 
mentioned, I think, the 600,000 contracts that haven't been 
formally closed out. I suspect that is not because somebody did 
a bad job. I suspect it is because they are overwhelmed with 
volume.
    Mr. Assad. Dr. Snyder, I think that the issue here, and it 
is one that we are all looking at very carefully, and I did 
mention to you that there was one recommendation, actually it 
was three, that were tied into DCMA. And it was about contract 
oversight. And the difference of opinion was that the 
commission felt that contract oversight for post, camp and 
station in the United States should be done by the DCMA. I have 
two former DCMA commanders here. That has never been a 
responsibility of DCMA and would have required a significant 
change in organizational structure to make that happen.
    But it is our belief that, in order to have the operational 
force understand the capability that they are contracting for 
is to lay some of that responsibility on them to do oversight 
for post, camp and station. And so when we are in theater, when 
we are looking at life support services, dining facilities, 
laundry facilities, things of that nature, we are looking for 
the operational force in concert with the contracting officer 
and with DCMA oversight to do that oversight. You are 
absolutely right, sir, it is a critical function that, at the 
end of the day, we have got to assure the taxpayers as well as 
the warfighters that we got what we paid for.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    One final question, gentlemen, the Government 
Accountability Office (GAO) and others have come out with a 
report talking about some of the longstanding challenges 
regarding contractor support for deployed forces. If you were 
to look at what the Army and DOD are recommended to do under 
the Gansler report, would you see, in comparing those, is there 
anything left, if all the Gansler report recommendations are 
fulfilled, would there be anything left that the GAO has 
pointed out that needs to be done? And if so, who would be 
responsible for doing those things?
    Mr. Assad. I think that we are really in the early phase of 
getting through integration of our operational commanders in 
the planning of contract operation. And I think that is the 
area we are focused on with the Joint Forces Command and the 
Joint Staff, but that is the area that we really need to place 
a significant amount of focus on. Every plan changes, that is 
true, but the reality is we need to ensure that we have 
inculcated that mind-set that says we really do need, not only 
to plan what is organic and what is not, but exactly what 
contracting mechanisms and who is going to do it as well as 
which part of the operating force is going to oversee the work 
that needs to be done.
    So I would say, Mr. Congressman, from my perspective, it is 
that aspect of contract planning and ensuring, as Darryl said, 
that you understand, what is in fact the battle plan and how 
will we integrate it into it to ensure that we provide the 
support that is necessary?
    General Harrington. Sir, we will provide a contracting 
officer's representative pocket guide for you. We will get that 
over to you. That reinforces, that is what gives soldiers and 
actually anyone who is going to be a COR out there, boots on 
the ground actually watching what the contractor does. The 
challenge we have got, I think, is exactly as Mr. Assad 
described. We are on a path now. We need to have the continued 
emphasis at every level for it. We need it to evaluate contract 
files and show the contract team and the contracting officers 
that key input into that contract file upon which we judge the 
performance of a contractor. Those are critical functions. I 
think we have begun to reinforce; we just have to continue to 
emphasize it.
    Mr. Parsons. I would just add that I think the other area 
where we are going to need continued help is the focus on this 
issue. We have a long way to go in building up this capability, 
as General Scott alluded to. And my fear is that, if the world 
becomes a calmer place and there is a draw-down on the number 
of deployments that we are making, there may be a sense that we 
can, you know, eliminate some of what we are trying to build up 
here.
    So my appeal would be, we have gotten great support out of 
Congress as we have gone forward on this Gansler Commission 
report. I think we need to keep that laser focus on that to 
make sure that the capability we are developing and building 
up, we do not lose it 10 years from now, and that we do follow 
through on the appointments of the general officers and 
developing the career path for these military officers and Non-
Commissioned Officers (NCOs).
    General Scott. Congressman Wittman, as I was thinking 
through my answer and listening to my colleagues, I checked my 
route home to make sure I don't have to get off at the Foggy 
Bottom Metro stop, because I would say that the one thing that 
remains to be done is not strictly the purview of this 
committee; it is the coordination and synchronization of 
everyone who is involved in stabilization and reconstruction 
operations.
    When I was there, half the money I spent came though the 
State Department. But USAID, main State, Department of 
Commerce, all had different rules; all organized to conduct 
contracting and contractor support differently. And the only 
place that all came together was in the ambassador's office. 
And there needs to be a functional, operational and tactical 
level coordination that says, if we are going to bring all the 
elements of national power to a counterinsurgency fight, we 
have got to have a way where everybody's capabilities are put 
on the table. And the senior leaders in charge of the U.S. 
mission, be they the ambassador's staff or be they the Joint 
Task Force Commander staff, can look and say, who is best 
qualified and best positioned to do this? Because when you 
don't do that, you have an opportunity for duplication. You 
have an opportunity for waste. You have an opportunity for 
effort that is less effective than it could.
    One of the classic cases that GAO pointed out is cases, for 
example, where one department would build a water treatment 
plant, but the other department is charged with putting in the 
sewer pipes that carry the waste to the water treatment plant. 
If the two schedules and the two contracts are not 
synchronized, you either end up with waste running in the 
street because the plant is not there or you end up with a 
beautiful plant with no inflow coming in.
    So, in my view, that is what needs to be done. It is 
setting up the mechanisms for coordination between all the 
branches of government that are operating in the 
counterinsurgency.
    Mr. Wittman. Thank you gentlemen, great answers, thank you.
    Dr. Snyder. General Scott, you answered one of the 
questions I was going to ask which is about State and U.S. 
Agency for International Development (USAID) because this has 
been an ongoing interest of this committee is how to get 
everybody working together. The example you just gave, I think, 
you said came from GAO. What, did you have any, from your 
personal experience, where you saw things that didn't go so 
smoothly?
    General Scott. Yes, sir. First of all, I would say that 
most of my relationship with State went very well, but it was 
highly personality-dependent. I worked very closely with the 
Iraq Reconstruction Management Office, later ITAO. And I don't 
remember what the ITAO initials stood for, Iraq Transition 
Assistance Office. I worked very closely with those staff 
members, and we had an excellent relationship that allowed us 
usually to work out problems. But nevertheless, there were 
cases, for example, we had to take over the contract to 
complete the children's oncological hospital in Basra after 
USAID had initiated the effort, the contract was overrun, the 
cost overrun. The contractor wasn't making adequate progress 
and it eventually took my contracting officers and the Army 
Corps of Engineers doing quality assurance to come through and 
get the project completed.
    It should have been apparent that this was a program that 
exceeded USAID's capabilities, because at the time, USAID had 
three contracting officers in country. And they had no ability 
to extend their contract oversight down to Basra. I had a local 
contracting office down in Basra. The Corps of Engineers had a 
regional office down in Basra. We were well able to provide 
contract oversight and quality assurance. It was almost like a 
Chinese menu; pick the services that you want, and we can 
provide them. But there was no mechanism, short of the First 
Lady herself getting involved in this, to cause people to 
coordinate and cooperate in order to bring success to the 
project.
    Dr. Snyder. I think our opinion is that there is a lot of 
excellent State Department USAID people, but we have 
dramatically cut back on their numbers in the last decade and a 
half, to our great detriment as a country.
    General Scott. Sir, that would be my observation. I had no 
question about the quality of folks either in USAID or in 
State, but I had 171 contracting officers in Iraq, and they had 
three.
    Dr. Snyder. I wanted to ask, Mr. Assad, I wanted you to go 
into a little more detail about the DCMA, Defense Contract 
Management Authority. And you go through it on page 6 of your 
written statement, and I want to be sure I understand, which 
was Gansler recommended that DCMA would manage all the 
contracts for base, security, water, all those kinds of things.
    Mr. Assad. Actually, what he recommended, Congressman, was 
that the responsibility for base operations and base oversight 
in CONUS at all of our post, camp and stations would be done by 
DCMA.
    Dr. Snyder. DCMA. And the Army said, no, because we 
actually have some officer bases we refer to as the mayor. 
Because you felt that that, not you but the Army felt that was 
an integral part of being the base commander and that was a 
military function. Is that correct? So that was why there was a 
push back on that?
    Mr. Assad. Actually, Mr. Congressman, it was all force 
services, Army, Navy, Air Force and Marine were uniform in the 
thought that the responsibility for oversight at a particular 
post, camp and station should be resident and the 
responsibility of commanding officer.
    What Dr. Gansler's concern was, was that, when we went into 
theater, if we were going to expect DCMA to do that kind of 
oversight for post, camp and station oversight in theater, if 
they didn't have the same experience in the continental United 
States (CONUS) or a way to train themselves repeatedly, that 
that could be a problem. But our view, where we are headed is 
to ensure that when our soldiers and our Marines and airmen are 
in garrison, that they are getting the experience that they 
need in garrison to do that kind of oversight and that they 
will conduct the training so that when we have our plan in 
place, each of our organizations knows how many of their folks 
within their operational unit will actually have to do that 
kind of oversight overseas, and that we have that training in 
place so that they can in fact do it in CONUS.
    We just didn't feel like that particular responsibility, 
never having been a responsibility of DCMA at any time in its 
existence, was an appropriate way to use the resource.
    Dr. Snyder. That makes sense.
    Mr. Wittman, do you have any other questions?
    Mr. Wittman. No questions.
    Dr. Snyder. I wanted to ask if you had any comments, and I 
think, General Scott, you talked a little bit about it because 
you are the Air Force, but if we had a group of people here 
today from the Army, from the Marine Corps. and from the Navy, 
would we have a similar type of reporting? What do you think 
with regard to where the other services are at, Mr. Assad?
    Mr. Assad. It is not consistent. If what we are talking 
about is senior leaders across the force, we need more, in my 
view, more flag officers, more general officers in the 
acquisition and contracting profession. There is no doubt about 
it. At one point in time, the Air Force really was the 
preeminent service in terms of leadership within the 
contracting profession.
    When General Scott, who is now about to retire, leaves, we 
will have one. At one point in time, there could be three or 
four general officers serving in various positions within the 
Air Force who would be significantly capable in the contracting 
profession. The same is true for the Army. But the Army has in 
fact recognized and, much to the credit of the chief and 
secretary, they have moved out smartly in terms of increasing 
their numbers.
    The Navy has remained relatively stable. It turns out that 
we have a resource within the Navy that we haven't always 
tapped, and that is our flag officers who are in the Civil 
Engineering Corps. Every one of those officers has to be a 
level three certified contracting officer. So they are 
perfectly capable of operating in a combat environment and 
serving in the role that General Scott served in.
    In terms of the Marine Corps, it is a much smaller force. 
There are only about 175 Marines who are presently contracting 
officers or NCOs with contracting experience. So the path that 
the Marines have chosen, and frankly I fully support, is one 
where they are trying to get their logistics officer to have 
significant contracting experience so that, when they get to 
the 06 level, it becomes an enhancement to command and an 
enhancement for general officer rank to have contracting 
experience.
    So right now, we have no--well, that is not true. The two-
star general officer who is in charge of logistics for the 
Marines, in fact, it was a contracting officer at one time, but 
that wasn't necessary done by plan. The Navy has two officers. 
In fact Rear Admiral Dussault just returned from Iraq. She 
relieved General Scott. And Rear Admiral Kathleen Dussault is 
now back home in CONUS, who is moving on her way to the Joint 
Staff. They have two officers in contracting, and then they 
have their contracting officers in the Civil Engineering Corps. 
So I would say, of all of services, I think the Air Force, 
frankly, in my view, needs to relook at increasing the number 
of general officers that they have in contracting. I think the 
other three services are pretty well addressing the matter.
    Dr. Snyder. General Scott, you have only about six days 
left, do you have agree with that assessment of the Air Force?
    General Scott. Yes, sir, I do. At one time, there were six 
general officers in Air Force contracting. When I retire in six 
days, there will only be one, Brigadier General Wendy Masiello. 
And she is currently not serving in contracting. So the value 
of the kind of background that I had proved itself, I think, 
over in Iraq and Afghanistan. And frankly, one of the questions 
that was asked was, could we do the job with a member of the 
senior executive service, and we looked very closely at that 
when it was time for me to rotate out of the command billet. 
And the conclusion that we universally came to, and by the way 
the guy with the heaviest vote was a guy named Dave Petraeus, 
was no, you need an experienced flag officer to do these kinds 
of missions. And with the Air Force only having one, that is a 
mighty thin bench.
    Mr. Parsons. I think it is very critical that the junior 
officers see that there is a career path for them to be general 
officers. If you eliminate those general officer slots, then 
what we found, especially in the Army, is that anybody that 
came into acquisition would lean over towards program 
management side, because they knew there was a possibility to 
make general officer on the program management side.
    I think it is really key that, if you want to keep a viable 
career path, not that everybody attains this rank of general 
officer while they are in active duty, but it is a career goal 
for many in the service.
    Dr. Snyder. I see General Scott sitting there about to 
retire next week, and it seems to be a career path that 
preserves your youthful appearance.
    In response to Mr. Wittman, you all talked a little bit 
about the way ahead. Do you all have any specific concrete 
legislative things you think are obstructing your way or 
suggestions of things we need to look at that we had in year's 
defense bill?
    Mr. Assad. Dr. Snyder, actually, I think Congress has done 
very well by us. I mean, as far as we are concerned, almost 
everything that we have asked for, Congress has in fact enacted 
some form of legislation to support us. And so, at the present 
time, I think what we need to do is utilize the flexibilities 
and capabilities that Congress has given us to move forward.
    There were a couple of minor legislative actions that we 
asked for which were not significant that would make life a 
little easier, but really, one of them, for example, was the 
express option at the GAO. We asked for that, but in reality, 
every time have we asked the GAO to use the express option, 
they have given it to us. So, in practical terms, I don't think 
it has much benefit. So, right now, I would like to say, I 
would like to thank the Congress very much for being so 
responsive to us in enabling us to get our jobs done.
    General Harrington. Sir, we second that. Particularly with 
respect to the workforce, Congress's help has been tremendous, 
the flexibilities we had with the section A-52 funding will 
help us get the workforce built back up, restored and trained 
over the coming years, so that we can make them a permanent 
part of the Army civilian workforce structure. So it is 
incumbent upon us to execute the support and reinforcement 
part.
    General Scott. Sir, as a field commander, I was delighted 
with the support I got out of the Congress. It was clear that 
the Members were paying attention. When we asked for something, 
it came through quickly, usually in exactly the form that we 
asked for it.
    So one of the things that we had to be very careful was to 
make sure you know what you are asking for, because Congress is 
going to give it to you. I have nothing but praise for the 
support that I received from the Congress while I was a field 
commander. It was clear that you all were on our side, even 
when there were a lot of other people who were putting 
obstacles in our way. Congress was not one.
    Dr. Snyder. I think the last question I would ask, and it 
is not answered today, but I hope that you all will feel free 
to provide in writing anything you want to add, we will make it 
a part of the record in response to, considered as formal 
question, to augment anything you have said today if there is 
something you think we need to hear of.
    General Scott, I think I will give you the last opportunity 
here, and you are one week out, if there is anything you would 
like to tell us about before we close the hearing, this is your 
last chance.
    General Scott. Well, sir, since it will be on the record, I 
just want to say, for 34 years, it has been my honor and my 
delight to serve our great nation. When I went over to Iraq and 
Afghanistan, I felt like the athlete who had trained long and 
trained hard and had never got an opportunity to play in the 
big game until then. I got in the game. I got to score some 
points. I may not have gotten a complete victory, but I think 
we put everybody on the right path. It is with somewhat of a 
slightly heavy heart that I hang up the uniform after serving 
the nation for as long as I have.
    One thing I can assure you is I will always be there to 
answer when the nation calls, even if it is not in uniform. I 
thank you, sir, for the opportunity to testify, thank you for 
the support that you and the committee have given us. God bless 
you all, and God bless America.
    Dr. Snyder. We appreciate your service, General Scott. I 
hope you will convey to all the folks who work for you how 
important we think they are. They are not the kind of folks 
that are going to be on television, but they are so important.
    Now, they will get these cool pictures, though, of them 
signing contracts on hoods of vehicles, but we think they are 
so important. And the American taxpayers think they are very, 
very important. And the men and women in uniform and their 
families, they may not know who it is who is important in their 
lives, but it is the folks you are trying to train up and the 
ones already doing the work, and we appreciate you. And you can 
count on us revisiting these topics as time goes by. This is 
very important to the Speaker and very important to Mr. 
Skelton, and very important to all the Members.
    So we are adjourned.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 25, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0056.001
    
    [GRAPHIC] [TIFF OMITTED] T0056.002
    
    [GRAPHIC] [TIFF OMITTED] T0056.003
    
    [GRAPHIC] [TIFF OMITTED] T0056.004
    
    [GRAPHIC] [TIFF OMITTED] T0056.005
    
    [GRAPHIC] [TIFF OMITTED] T0056.006
    
    [GRAPHIC] [TIFF OMITTED] T0056.007
    
    [GRAPHIC] [TIFF OMITTED] T0056.008
    
    [GRAPHIC] [TIFF OMITTED] T0056.009
    
    [GRAPHIC] [TIFF OMITTED] T0056.010
    
    [GRAPHIC] [TIFF OMITTED] T0056.011
    
    [GRAPHIC] [TIFF OMITTED] T0056.012
    
    [GRAPHIC] [TIFF OMITTED] T0056.013
    
    [GRAPHIC] [TIFF OMITTED] T0056.014
    
    [GRAPHIC] [TIFF OMITTED] T0056.015
    
    [GRAPHIC] [TIFF OMITTED] T0056.016
    
    [GRAPHIC] [TIFF OMITTED] T0056.017
    
    [GRAPHIC] [TIFF OMITTED] T0056.018
    
    [GRAPHIC] [TIFF OMITTED] T0056.019
    
    [GRAPHIC] [TIFF OMITTED] T0056.020
    
    [GRAPHIC] [TIFF OMITTED] T0056.021
    
    [GRAPHIC] [TIFF OMITTED] T0056.022
    
    [GRAPHIC] [TIFF OMITTED] T0056.023
    
    [GRAPHIC] [TIFF OMITTED] T0056.024
    
    [GRAPHIC] [TIFF OMITTED] T0056.025
    
    [GRAPHIC] [TIFF OMITTED] T0056.026
    
    [GRAPHIC] [TIFF OMITTED] T0056.027
    
    [GRAPHIC] [TIFF OMITTED] T0056.028
    
    [GRAPHIC] [TIFF OMITTED] T0056.029
    
    [GRAPHIC] [TIFF OMITTED] T0056.030
    
    [GRAPHIC] [TIFF OMITTED] T0056.031
    
    [GRAPHIC] [TIFF OMITTED] T0056.032
    
    [GRAPHIC] [TIFF OMITTED] T0056.033
    
    [GRAPHIC] [TIFF OMITTED] T0056.034
    
    [GRAPHIC] [TIFF OMITTED] T0056.035
    
    [GRAPHIC] [TIFF OMITTED] T0056.036
    
    [GRAPHIC] [TIFF OMITTED] T0056.037
    
    [GRAPHIC] [TIFF OMITTED] T0056.038
    
    [GRAPHIC] [TIFF OMITTED] T0056.039
    
    [GRAPHIC] [TIFF OMITTED] T0056.040
    
    [GRAPHIC] [TIFF OMITTED] T0056.041
    
    [GRAPHIC] [TIFF OMITTED] T0056.042
    
    [GRAPHIC] [TIFF OMITTED] T0056.043
    
    [GRAPHIC] [TIFF OMITTED] T0056.044
    
    [GRAPHIC] [TIFF OMITTED] T0056.045
    
    [GRAPHIC] [TIFF OMITTED] T0056.046
    
    [GRAPHIC] [TIFF OMITTED] T0056.047
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Is the ability to define contract requirements and to 
manage contractors and contract service support part of the performance 
evaluation for military personnel who are outside the acquisition 
workforce but have these responsibilities? Should it be?
    Mr. Assad. The Department currently mandates that a Requiring 
Activity affirm that performance of Contracting Officer Representative 
(COR) functions will be addressed during COR performance assessments. 
This requirement appears in a Deputy Secretary of Defense memorandum 
dated August 22, 2008. The Gansler Commission report identified CORs as 
an essential part of contract management. As highlighted in the March 
25 testimony to the Subcommittee, the Department's section 813 DOD 
Contract Surveillance Subcommittee has made much progress in the area 
of CORs, including developing the requirement for COR functions to be 
addressed during performance assessments.
    Dr. Snyder. Is the use and management of contractors included in 
unit readiness assessments?
    Mr. Assad. Unit commanders assess the readiness of contractors to 
support their mission when contractors are assigned to deployable 
positions that are in direct support of that unit's mission. Further, 
the use, management and performance of contractors are evaluated on a 
consistent basis through contractual oversight. Contracting personnel, 
requiring agency leadership and contracting officer representatives 
manage service contractor performance through Performance Based Service 
Acquisitions (PBSA) in accordance with contractual requirements.
    Dr. Snyder. What is the status of the Acquisition, Technology, and 
Logistics strategic workforce plan to address sourcing contracting 
personnel with the right skills for contingency operations?
    Mr. Assad. The Secretary of Defense recently announced intentions 
to grow the organic DOD acquisition workforce by 15 percent. This 
growth will directly enhance DOD's readiness and capacity to deploy 
contracting professionals worldwide who are effective immediately upon 
arrival. In addition to growth, the plan to source contracting 
personnel with the right skills includes the recent effort to identify 
competencies critical to the contingency mission as part of the DOD-
wide contracting competency assessment initiative. Results are being 
factored into development of a joint contingency contracting 
certification program based on a three tier proficiency level approach. 
Additionally, DOD continues to improve training and performance support 
resources. DOD just released the second edition of ``Contingency 
Contracting: A Joint Handbook for the 21st Century.'' This pocket-sized 
handbook and DVD provide essential information, tools, and training for 
contingency contracting officers. DOD has also redesigned its 
contingency training courses to include interactive simulations, hands-
on practical work, and robust capstone projects. Cultural awareness and 
ethics are emphasized. Subject matter experts provide perspective in an 
expeditionary environment. In addition, lessons learned, best 
practices, and after action reports are posted on the Contingency 
Contracting Community of Practice web-portal. DOD is also developing an 
advanced Contingency Contracting Course, which provides ``just in 
time'' training to senior level contracting personnel deploying to a 
management position. The course addresses several important issues: 
sustainment contracting in a contingency environment, major source 
selection, cost and price analysis, and reconstruction in a contingency 
environment.
    Dr. Snyder. In the early 1990s, Congress passed the Defense 
Acquisition Workforce Improvement Act (DAWIA) to try and ensure that 
the acquisition workforce receives the necessary training to perform 
its duties. DOD implements DAWIA through DOD Directive 5000.66.
    a) Do these mechanisms provide adequate policy guidance for the 
contracting workforce? b) Should Congress revisit DAWIA in light of the 
current situation, particularly in relation to contingency contracting?
    Mr. Assad. a) DAWIA is implemented through DOD Directive 5000.52, 
DOD Instruction 5000.66, and the DOD Desk Guide. These documents 
provide adequate guidance for managing the career development of the 
acquisition workforce. Each year the Functional Advisor for each 
acquisition career field reviews the currency of competencies and 
certification requirements for the career field. Certification 
requirements for the acquisition career fields are posted each year at 
the Defense Acquisition University (DAU) Web site in the DAU Catalog.
    b) The Department has efforts underway to standardize experience, 
education, and training requirements for contingency contracting 
professionals. Changes to DAWIA are not required to accomplish this 
effort. The Commander, Joint Theater Support Contract Command, needs to 
deploy the right contracting assets. In today's Joint operational 
environment, which comprises individual Component contracting 
personnel--military and civilian--experience and education/training 
levels vary. To ensure the Commander can leverage the varying 
backgrounds and skill sets within this cadre of contingency contracting 
professionals, the Department is developing standard proficiency 
levels. A key tenant of this program is to track experience, as well as 
education/training, looking at both contracting generally and 
contingency contracting specifically. The certification levels 
associated with DAWIA remain an important way to track general 
contracting experience and education/training. On top of this, the 
contingency contracting cadre model looks at contingency contracting 
experience and education/training. Contingency contracting operational 
experience is of principal importance, ranging from exercises to 
multiple deployments. The cadre's participation in contingency 
contracting training, in a specific set of core courses, also feeds 
into the proficiency assessment. Developing this contingency 
contracting cadre is one of the many initiatives being worked by the 
Department's Task Force on Contracting and Contract Management in 
Expeditionary Operations. Originally established to address the 
requirements of section 849 of the National Defense Authorization Act 
for Fiscal Year 2008, the Task Force continues to support 
implementation of contingency contracting improvements. The Task Force 
comprises representatives from the Office of the Secretary of Defense 
and all the Military Departments, so it leverages the full range of 
initiatives--from the policy level to the grass-roots level.
    Dr. Snyder. Should the Gansler Commission examine the contingency 
contracting capabilities of the Air Force and the Navy? a) Do these 
departments provide adequate contingency contracting training for 
military personnel outside the acquisition workforce? b) Do they 
incorporate contingency contracting in pre-deployment training and 
mission readiness exercises?
    Mr. Assad. No, an examination of the contingency contracting 
capabilities of the Air Force and Navy was conducted as a result of the 
Gansler Commission findings and recommendations. Section 849 of the 
National Defense Authorization Act for Fiscal Year 2008 required the 
Department to examine the applicability of the Gansler Commission's 40 
recommendations to the Air Force and the Navy. The Department engaged 
in a six-month analysis and reported its findings to Congress on June 
2, 2008, which included an assessment of the Air Force and Navy.
    a) Yes, the Department has created DOD-wide contingency contracting 
training for military personnel outside the acquisition workforce. The 
Department developed a broad program of instruction (POI) for non-
contracting operational military leaders on the management of 
contractors with deployed forces. The Military Education Coordination 
Council has added the POI as a special area of emphasis, so that it 
will be taught at the war colleges. In addition, the POI is available 
as an on-line module.
    b) Yes, contingency contracting is covered in pre-deployment 
training and mission readiness exercises. In conjunction with all the 
Services and the Defense Acquisition University (DAU), the Department 
has established a core set of required DAU courses for contingency 
contracting officers (CCOs). The Joint Contingency Contracting 
handbook--which serves as the basis for one of the required CCO DAU 
courses--provides a consolidated source of information for our CCOs 
conducting contingency contracting operations in a Joint environment. 
It provides the essential information, tools, and training to meet the 
challenges they will face, regardless of mission or environment. In 
addition, mission readiness exercises like EUCOM's AUSTERE CHALLENGE, 
SOCOM's PANAMAEX, and PACOM's COBRA GOLD are major joint military 
exercises that incorporate contingency contracting. These exercises 
serve as joint training, done for the way we fight.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry?
    Mr. Assad. No additional information to provide at this time.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry?
    General Scott. I thank the Chairman and the members for the 
opportunity to share my experiences and insights. I urge the Oversight 
and Investigations Subcommittee to continue to press the Services on 
their plans to build viable career paths for uniformed contracting 
officers that will attract their share of each service's `best and 
brightest.' The Army has a good plan, but executing it successfully 
will require close attention at least through this term of Congress and 
the next.
    I believe the Air Force, on the other hand, is in danger of 
repeating the neglect that the Army's contracting career field suffered 
from prior to the Gansler Report findings. They don't have a strategy 
for developing officers that can compete with the service's best beyond 
the rank of Lieutenant Colonel.
    The Air Force hasn't made a clear distinction between the roles of 
its officer, enlisted and civilian contracting officers. Consequently, 
there is a misperception that the three are largely interchangeable, 
which leads to the perception outside the career field that officers in 
contracting are narrow technicians, rather than leaders. This lack of 
deliberate, purposeful career development for officers in particular 
has resulted in today's situation where not one Air Force contracting 
primary executive leadership position is held by a military officer--
they are all held by civilians of the Senior Executive Service. As the 
Gansler Report pointed out, the Army's deteriorating contingency 
contracting capability began when they eliminated General Officers from 
the career field--I believe the Air Force has started down that same 
path.
    The Air Force doesn't have clear doctrine or training for operating 
in a joint and/or interagency environment--this in spite of the reality 
that, because they have the largest contingency contracting force, they 
will likely provide the bulk of contingency contracting assets at least 
until the Army completes its build-up, and perhaps beyond that.
    The Air Force's contingency contracting doctrine and training 
focuses primarily on how to execute contracting transactions in short-
term contingencies, not how to plan and conduct contracting operations 
in support of a large campaign. For example, I continually had to 
convince my Air Force officers that buying commercial items from the 
local Iraqi economy, and hiring local Iraqi labor was in the U.S. 
interest, even though the Operation Iraqi Freedom Joint Campaign Plan's 
objectives for its economic line of operation included revitalizing the 
Iraqi economy and putting military age young men to work. They were 
trained to look for the lowest price--which was often from the U.S. or 
another Persian Gulf region country--and none of them had been exposed 
to the Campaign Plan prior to deployment. My soldiers, on the other 
hand, were far less proficient than their airman peers at executing 
transactions, but were wizards at developing innovative methods of 
synchronizing acquisition planning and execution with tactical and 
strategic objectives.
    The Army, on the other hand, has ably addressed campaign planning 
in the design and concept of operations for its Contracting Support 
Brigades, as evidenced by the recent exercises that Mr. Parsons 
referenced in his testimony. Greater and more frequent cooperation 
between the two services (and the Navy and Marines where appropriate) 
in training and exercises could provide an efficient remedy. For 
example, the Army already includes contracting activities in their pre-
deployment planning and exercises at Brigade and Division HQ levels. 
Air Force contingency contracting officers who will support those units 
should be included as well.
    Finally, let me express again, for the record, my appreciation for 
the interest and support of the Congress, and this Subcommittee in 
particular, in this area. I was the anonymous Flag Officer quoted in 
the Gansler report as saying that my troops solved unprecedented 
problems every day, and they deserved a medal for it; but if we 
approached the next contingency with the same lack of preparedness as 
this one, we should all be fired! Thanks to your leadership, and the 
energetic response by the OSD and Army staffs, I think our jobs are 
safe for the next time!
    Dr. Snyder. Is the ability to define contract requirements and to 
manage contractors and contract service support part of the performance 
evaluation for military personnel who are outside the acquisition 
workforce but have these responsibilities? Should it be?
    Mr. Harrington. The rating official will address appropriately, 
based in the OER, the percentage of the person's duties and importance 
in that subject area. Some Contracting Officers Representatives (CORs) 
only spend a very small amount of their time on this duty whereas 
others perform COR functions nearly full time, and the OER reflects 
that accordingly.
    Dr. Snyder. Is the use and management of contractors included in 
unit readiness assessments?
    Mr. Harrington. No, contractors do not factor into the personnel 
readiness ratings of operating force units.
    Dr. Snyder. Do you have any concerns for funding any of the efforts 
or initiatives the Army is undertaking to implement the recommendations 
of the Gansler Commission?
    Mr. Harrington. To date Congress has been very supportive of Army 
needs to facilitate the transformation recommended by the Gansler 
commission. The Army wishes to express its appreciation for this 
support. The Army is striving to capture sufficient data on which to 
base a fully supportable decision regarding its need for additional 
resources in the out years. When that information becomes available, 
the Army will look forward to working with the Congress to ensure the 
Army is well positioned to meet its obligations in support of all 
contingency operations, both in conflict and in support of the American 
people.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry?
    Mr. Harrington. Yes. Since September 11, 2001, there has been a 300 
percent growth in contracted dollars and contract actions have grown 
significantly.
    The report of the Gansler Commission on Wartime Contracting 
(Gansler Report) is the clearly defined product illustrating a decade 
of decline in Army contracting workforce due to attrition, retirement, 
and downsizing, all to the point that the remaining workforce could 
focus only on the most pressing needs. Training and professional 
development have suffered and critical expertise have retired. The 
Commission revealed a problem that we were well aware of within the 
acquisition workforce, and has provided the momentum to overcome a 
decade of inertia.
    The Army is institutionalizing the systemic and long-lasting 
improvements necessary to ensure ongoing, successful alignment of 
contracting, doctrine, organization, training, leader development, 
materiel, personnel, and facilities for supporting our Soldiers and to 
provide the best value to the nation's taxpayers. The theme of the 
Gansler Report was that the Army did not have the organizational 
structure in place to support the explosion in expeditionary 
contracting, nor sufficient numbers of professionally trained 
contracting personnel to meet greatly increased requirements for 
contracted support Army-wide, with the requisite oversight, controls, 
and contract administration. Additionally, the Report emphasized the 
need for the Army's commitment to recognize contracting as a core 
competency and to enhance training, professional development, and 
career opportunities among the workforce.
    It took more than a decade to get Army Contracting in to this 
damaged shape. There is no quick fix. It will take time, and more 
important, the sustained commitment and support of the senior 
leadership of the Army, DOD, and Congress to rebuild the Army 
contracting workforce's skills, training, and experience. ASA (ALT) 
leadership will continue to provide the support, structure, and 
oversight needed to ensure a premier contracting workforce. Our 
Soldiers and our nation deserve nothing less.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry?
    Mr. Parsons. No.

                                  <all>

</pre></body></html>
